  U.S. DEPARTMENT OF COMMERCE
            Office of Inspector General




                    PUBLIC

                   RELEASE



                       BUREAU OF EXPORT
                         ADMINISTRATION
         Most Allegations of Irregularities in
Nonproliferation Export Control Cooperation
           Program Could Not Be Supported
       Final Inspection Report No. IPE-13313/February 2001




              Office of Inspections and Program Evaluations

FEB 27, 2001


MEMORANDUM FOR:               William A. Reinsch
                              Under Secretary for Export Administration


FROM:                         Johnnie E. Frazier

SUBJECT:                      Final Inspection Report: Most Allegations of Irregularities in
                              Nonproliferation Export Control Cooperation Program
                              Could Not Be Supported (No. IPE-13313)

As a follow-up to our January 18 draft report, attached is our final report on our inspection of
anonymous allegations made to the Inspectors General of the Commerce and State Departments
concerning the Bureau of Export Administration’s Nonproliferation Export Control Cooperation
(NEC) program. This report includes comments from your February 14, 2001, written response
to the draft report, which is included in its entirety as an appendix to the report.

We found the allegations, for the most part, could not be supported. However, we did find a few
areas where some improvements are needed in BXA’s management of the NEC program.

In response to our draft report, you asked that we indicate what action the State Department
Inspector General has taken or will be taking on the allegations that were also sent to her.
Although we coordinated parts of our review with that office, we did not ask for a formal
response from State’s Inspector General. We will be sending a copy of this final report to her.

Please provide us with your action plan addressing the recommendations within 60 calendar
days. We thank the personnel in BXA for their assistance during our review. If you have any
questions or comments, please contact me on (202) 482-4661, or have a member of your staff
contact Jill Gross, Assistant Inspector General for Inspections and Program Evaluations, on (202)
482-2754.


Attachment

cc:	 Anne Sigmund
     Acting Inspector General
     U.S. Department of State
U.S. Department of Commerce                                                                                    Final Report IPE-13313

Office of Inspector General                                                                                            February 2001


                                                   TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i 


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 


OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2 


OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3 


I.      Management Oversight and Controls Over Use of NEC Funds Should Be Improved . . . . 3 


        A.      Some NEC expenditures are questionable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3 

        B.      Guidelines on use of funds for official entertainment and representation

                need to be clarified . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5 

        C.      BXA’s reporting of NEC expenditures to State Department has improved . . . . . . . 6 


II.     NEC Staff Contacts With Foreign Officials Overseas Were Handled Properly . . . . . . . . . 8 


III.    NEC Program Performance Measures Appear Adequate . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


IV.     Some Additional Allegations Are Also Largely Unsupported . . . . . . . . . . . . . . . . . . . . . . 11 


V.      Other Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


        A.      BXA has developed a policy on the handling of its foreign visitors . . . . . . . . . . . . 13 

        B.      BXA needs to modify its agreement with the State Department regarding NEC

                program activity with China . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


APPENDIX I: NEC Program Funding and Personnel Resources . . . . . . . . . . . . . . . . . . . . . . . 16 


APPENDIX II: Agency Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

U.S. Department of Commerce                                                   Final Report IPE-13313

Office of Inspector General                                                           February 2001


                                   EXECUTIVE SUMMARY

In December 1999, the Inspectors General of the Commerce and State Departments received an
anonymous letter containing numerous allegations of irregularities in the Nonproliferation Export
Control Cooperation (NEC) program, including alleged mismanagement by senior BXA officials.
The letter alleged that BXA did not have legal authority for the NEC program; was improperly
using State Department funds; may have risked national security in its contacts with foreign
nationals; and, may have failed to adequately share the results of its export control policy
discussions held during overseas trips with other national security agencies. The letter also
claimed that BXA had set up an unauthorized unit to manage the NEC program, engaged in a
number of illegal or inappropriate personnel practices in staffing this unit, hired personal services
contractors in violation of the intent of Congress, and contrived to evade audit and program
review by both the State and Commerce Department Inspectors General.

The NEC program was set up to help Russia and the New Independent States of the former
Soviet Union, Central Europe, the Balkans, the Caucasus, and Asia develop export control
programs by providing training and technical assistance on export controls and advice on drafting
export control laws and regulations. BXA began the program in 1993 with Defense Department
funding to assist the four former Soviet republics that have nuclear weapon capabilities (Belarus,
Kazakhstan, Russia, and Ukraine) in dismantling their nuclear missiles, establishing secure
communications and a hotline, and promoting export control cooperation. The overall Defense
Department program also emphasized encouraging conversion of the defense industry and its
scientists.

Since its initial work with these independent states of the former Soviet Union, BXA has
expanded its original effort into what is now called the NEC program, principally supported by
State Department funding under the authority of the FREEDOM Support Act of 1992, to
establish programs for safeguarding against the proliferation of nuclear, biological, and chemical
weapons and preventing the diversion of weapons-related scientific and technical information
and expertise of the independent states to terrorist groups or third countries. The State
Department funds the bulk of the NEC program’s work through its appropriation under the
Nonproliferation, Antiterrorism, De-mining, and Related Programs account. BXA attempts to
accomplish this nonproliferation mission by conducting technical exchanges with these countries
in the areas of export control policy, automation, licensing, legislation, regulations, and
preventive enforcement. Although the State Department is now BXA’s principal funding source
for the program, the Defense Department and the U.S. Customs Service have also provided
funding to BXA. Under interagency agreements, these agencies transfer funds to BXA, based on
BXA’s funding proposals, to carry out technical exchanges with the foreign governments.


                                                  i
U.S. Department of Commerce                                                 Final Report IPE-13313
Office of Inspector General                                                         February 2001

We conducted a review of the specific allegations and related matters concerning the NEC
program to determine if they had any merit. We did not perform an evaluation of the program’s
overall effectiveness. We interviewed the Under Secretary, the Deputy Under Secretary, and
other senior BXA officials, including the principal staff of the NEC program office, and its
contractors. In addition, we interviewed attorneys both with BXA’s Office of the Chief Counsel,
and the Department’s Office of General Counsel, and officials with Commerce’s Office of
Budget. Furthermore, we interviewed several cognizant State Department officials who are
responsible for the direct program management as well as departmental oversight of BXA’s NEC
program activities.

Based on our review, we concluded that (1) most allegations about BXA’s conduct of the NEC
program could not be supported, and (2) some relatively minor improvements are needed in
BXA’s management of the NEC program. Our specific findings are outlined below:

Most allegations about BXA’s conduct of the NEC program could not be supported. For
example, we determined that the issue of legal authority for the program had been addressed by
both agency and departmental counsel, who concluded that appropriate authority existed (see
page 11). We also found that BXA did not provide extra spending money for visiting foreign
officials (see page 4); did not hold inappropriate, unaccompanied meetings with foreign officials
overseas (see page 8); did not withhold information from other U.S. agencies on the results of
policy discussions held overseas (see page 8); did not set up an unauthorized unit for the NEC
program (see page 11); did not engage in illegal or inappropriate personnel practices (see page
11); did not violate the intent of Congress by hiring contractors (see page 11); did not lack
expertise in export control matters (see page 11); and did not contrive to evade audit and program
review by either the State or Commerce Department Inspector General (see page 11).

Some NEC expenditures are questionable. While we did not find lavish spending as alleged,
we questioned BXA officials’ approval of the expenditure of NEC funds for operating a snack
bar for attendees at an overseas conference. We also questioned the appropriateness of using
government funds to cover ground transportation expenditures, though minor in amount, to cover
some side trips not related to two NEC workshops (see page 3).

Management oversight and controls over use of NEC funds should be improved. The Under
Secretary’s policy guidance on use of funds for official entertainment and representation needs to
be clarified and should provide more specific examples of what expenditures are allowable. In
addition, BXA should more closely monitor expenditures of federal funds for its NEC
conferences and technical exchanges (see page 5).



                                                ii
U.S. Department of Commerce                                               Final Report IPE-13313
Office of Inspector General                                                       February 2001

BXA needs to modify its agreement with the State Department regarding NEC program
activity with China. Documentation supporting an interagency agreement between BXA and
the State Department inappropriately includes references to BXA’s anticipated bilateral and
multilateral export control work with China. This oversight can cause misunderstandings with
Congress, which requires advance notification from the State Department of the intended use of
the nonproliferation funds. BXA needs to work with State to modify the agreement to clearly
exclude China from the list of countries that BXA will work with using State Department
funding (see page 14).



In its written response to our draft report, BXA agreed with all of our recommendations and has
already taken action on some of them. We summarize BXA’s response in the body of the report,
and BXA’s complete response begins on page 17.




                                              iii
U.S. Department of Commerce                                                   Final Report IPE-13313

Office of Inspector General                                                           February 2001


                                       INTRODUCTION

This inspection report presents the results of our review of allegations concerning BXA’s
management of the Nonproliferation Export Control Cooperation program. In December 1999,
the Inspectors General of the Commerce and State Departments received an anonymous letter
containing numerous allegations of irregularities in the NEC program, including alleged
mismanagement by senior BXA officials.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operational issues. One of the main goals of an inspection is to eliminate
waste in federal government programs by encouraging effective and efficient operations. By
asking questions, identifying problems, and suggesting solutions, the OIG hopes to help
managers move quickly to address problems identified during the inspection. Inspections may
also highlight effective programs or operations, particularly if they may be useful or adaptable for
agency managers or program operations elsewhere.

The inspection was conducted in accordance with The Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency, and was performed under the authority of
the Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
May 22, 1980, as amended.

                                        BACKGROUND

The NEC program was set up to help Russia, the New Independent States of the former Soviet
Union, and Central Europe develop export control programs by providing training and technical
assistance on export controls and advice on drafting export control laws and regulations. BXA
initiated its export control cooperation efforts in 1993 with Defense Department funding to help
with the dismantling of nuclear weapons installations and weapons production facilities
following the collapse of the Soviet Union. The early program included BXA’s participation in
the U.S. government’s efforts to assist the four former Soviet republics that have nuclear weapon
capabilities (Belarus, Kazakhstan, Russia, and Ukraine) in dismantling their nuclear missiles,
establishing secure communications and a hotline, and promoting export control cooperation.
The overall Defense Department program also emphasized encouraging conversion of the
defense industry and its scientists.

Since its initial work with these four countries, BXA has expanded its original Foreign Technical
Assistance (FTA) team into what is now called the NEC program, supported by State Department
funding under the authority of the FREEDOM Support Act of 1992. Under Section 504 of the


                                                 1

U.S. Department of Commerce                                                Final Report IPE-13313

Office of Inspector General                                                         February 2001




act, the Nonproliferation and Disarmament Fund, the State Department is authorized to establish
programs for safeguarding against the proliferation of nuclear, biological, and chemical weapons
and preventing the diversion of weapons-related scientific and technical information and
expertise of the independent states to terrorist groups or third countries. The State Department
funds the bulk of the NEC program’s work through its appropriation under the Nonproliferation,
Antiterrorism, De-mining, and Related Programs account. The primary difference between the
expanded NEC program and its predecessor, the FTA, which was funded by the Defense
Department under its Nunn-Lugar Cooperative Threat Reduction Program, is that it now includes
other countries in Central Europe, the Baltics, Central Asia, and Caucasus. In addition, the
objective of the NEC program is to curb the proliferation of weapons of mass destruction by
focusing on commercial channels of diversion. BXA attempts to accomplish this by conducting
technical exchanges with these countries in the areas of export control policy, automation,
licensing, legislation, regulations, and preventive enforcement.

While the State Department is now BXA’s principal funding source for the program, the Defense
Department and the U.S. Customs Service have also provided funding to BXA. Under
interagency agreements, these agencies transfer funds to BXA, based on BXA’s funding
proposals, to carry out technical exchanges with the foreign governments. The Department of
Energy and the U.S. Coast Guard also participate in these nonproliferation efforts. BXA began
the NEC program on an informal basis in 1993 with short-term assignments of BXA staff, then
formalized its efforts in 1995 with the creation of the FTA. Currently, BXA has nine staff
members assigned to the program. Funding levels for the program totaled nearly $6 million
dollars in FY 1999 and approximately $5.6 million in FY 2000 (see attachment).

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objective was to assess the validity of the allegations concerning the NEC program. The
scope of the inspection was limited to the specific allegations and related matters; we did not
perform an evaluation of the program’s overall effectiveness. Our review methodology included
conducting interviews with BXA officials named in the allegations, as well as other cognizant
BXA, Commerce, and State Department officials. We also reviewed contract files, budget
information, personnel documents, organizational orders, and NEC program files. During the
review and at its conclusion, we discussed our findings with the Under Secretary for Export
Administration, the Deputy Under Secretary, and the NEC program team leader. Although most
of our field work was conducted in the Washington, DC, area from June 12 through September 1,
we continued to receive additional information from BXA officials up until November 21, 2000.



                                               2

U.S. Department of Commerce                                                  Final Report IPE-13313

Office of Inspector General                                                           February 2001




                           OBSERVATIONS AND CONCLUSIONS


I.    Management Oversight and Controls Over Use of NEC Funds Should Be Improved

Several of the allegations related to BXA’s management of NEC program funds. Specific
references were made to BXA officials’ not only spending above the authorized per diem rate for
hotels overseas, but also hosting lavish receptions and hospitality events during their stay.
Another allegation was that BXA provided spending money and transportation to shopping malls
to foreign officials visiting Washington on technical exchanges. Questions were also raised
about the adequacy of BXA’s and State Department’s oversight of NEC expenditures.

In following up on these allegations, we did not find support for the allegations that BXA
officials used government funds to host lavish receptions and stay in hotels that exceeded the per
diem rate. However, we did find four cases in which BXA either did not comply with its own
guidance on hosting dinners or did not conform with federal travel regulations or with
departmental regulations for official entertainment and representation. BXA’s lack of
conformance was, at least in part, due to unclear guidance on the use of program and other funds
for entertainment or related purposes. We were unable to determine whether there were other
similar instances of inappropriate spending because of the lack of detail in the cost data that BXA
was able to provide us. Our review of BXA’s spending for these events focused on a sample of 8
events out of a total of 33 which BXA hosted during FY 1999 and FY 2000. We requested BXA
officials to furnish us detailed cost estimates for the 8 events in our sample. Unfortunately, BXA
officials could provide us with detailed cost data for only 2 of events, and an aggregated cost
breakdown for the remaining 6 events.

A.    Some NEC expenditures are questionable

The four BXA cases where we found questionable BXA expenditures involved a dinner and use
of a college-run snack bar at an NEC conference in England and two local tours for workshop
attendees in Tbilisi, Georgia, and Washington, DC. At the NEC’s annual International
Conference on Export Controls in Oxford in the fall of 1999, BXA officials hosted a dinner on
September 30 for 49 people, including BXA personnel and foreign officials. BXA spent $5,688
for the dinner including $606 for alcoholic beverages (including hard liquor). It paid for the
dinner with State’s program funds by withholding the per diem funding of the attendees
collectively, plus using $3,000 in State Department funding which was listed in the interagency
agreement as “hosted events.” NEC officials told us that they considered it to be a “working
event” scheduled as part of the conference program, and not official entertainment or


                                                3

U.S. Department of Commerce                                                 Final Report IPE-13313

Office of Inspector General                                                          February 2001




representation. They said that they included line items for hosted events and conference
expenses in the budget proposal to State for the conference, and that the expenditure had been
approved in advance by State Department officials.

A State Department senior official told us that BXA had discussed in advance the proposed
expenditures for the conference with him. He also agreed that the dinner was a “working event”
and says that State will customarily approve the expenditure of program funds for wine and beer
in conjunction with a meal overseas, as well as occasional beverages and snacks, within reason.
However, this official said that if he knew in advance of BXA’s intent to purchase hard liquor, he
would not have approved State Department funding for the dinner. He said that he would have
insisted that BXA pay for the event with BXA’s representation funds. However, the purchase of
hard liquor also conflicts with the policy guidance of BXA’s Under Secretary (see page 5).

The second example of a questionable NEC expenditure involved an invoice we found for
another food bill for the Oxford conference, which prompted us to raise some questions. We had
difficulty in trying to determine the use of the approximate $2,342 covered by this invoice, also
for September 30, from the College Bar at Oxford’s St. Hugh’s College. At first, BXA told us
that the invoice was for a luncheon it sponsored; then we were told that it was for a cocktail
reception sponsored by BXA at the College Bar. However, based on information subsequently
received from BXA on November 21, 2000, we were told that the $2,342 actually represented the
cumulative charges the conferees made at a dormitory snack bar (the “College Bar”) during the
course of the conference. Although both BXA and State Department officials claimed that the
availability of the College Bar to serve alcoholic and non-alcoholic beverages and snacks into the
late evening allowed for extended periods of interaction and networking among the conferees, we
believe such provision of the snack bar food and drinks for conference attendees violates federal
travel regulations and should not have been allowed. In their planning for this event, BXA
officials should have anticipated the needs of the conference participants, and arranged for them
to use the College Bar facilities on a pay-as-you-go basis.

The third example of BXA not complying with appropriate guidelines or its questionable use of
program funds occurred during a November 1999 NEC regional export control workshop held in
Tbilisi, Georgia. The Georgian co-host asked the NEC staff to pay for a Tbilisi city tour to share
Georgian cultural and historical information with workshop delegates. In response to our
question on this matter, BXA officials stated that they did not consider this to be “official
entertainment” for it did not involve members of the U.S. delegation. While a relatively small
amount of program funds was used for this event ($60), BXA should have obtained post approval
for the expenditure as a representation event using its Operations and Administration (O&A)
funds.

                                                4

U.S. Department of Commerce                                                   Final Report IPE-13313

Office of Inspector General                                                            February 2001




Regarding the allegation that BXA officials provided spending money and transportation for
shopping trips for the foreign visitors attending technical exchanges in Washington, we found
that BXA provided them with travel advances, based on the current per diem rate, within the
authorized per diem allowance for meals and incidental expenses available to official travelers.
We also found that BXA customarily provides transportation for the officials during their stay in
Washington, including transportation to and from the airport, to their hotel, and between the
Commerce, State, and Defense Departments for the technical exchanges. On the last day of their
stay in Washington, the visitors are sometimes taken to a local shopping mall as a courtesy.

The fourth instance of a questionable BXA expenditure involved such transportation services.
The NEC program was charged approximately $200 for one “tour as directed,” for a group of
foreign visitors attending a Tajikistan Licensing Workshop in April 2000. In response to our
questions on this expenditure, BXA officials explained that the van stopped at a local electronics
store en route to transporting the participants back to their hotel as a courtesy to enable the
Tajikistan delegation members to purchase computer and other electronic office supplies. This
stop added an hourly charge of $48.34 to the basic cost of $160.77 for the trip from the
Commerce Department to the hotel. Our concern is with potential abuse if such transportation is
viewed as a personal taxi service paid for with State Department funds. In the future, we believe
that BXA may wish to negotiate its general ground transportation contract to allow for a modest
side trip (at no additional cost) on the final day of the visitors’ stay in Washington. For any side
trips beyond this level, BXA should encourage the visiting delegates to make separate
arrangements with BXA’s contract transportation company, or any other carrier, and use their
personal funds to cover those costs.

In conjunction with the finding mentioned below, we believe that BXA’s policy guidance on
official entertainment and representation should be revised to clarify the do’s and don’ts and
provide more examples of allowable expenditures, including those for meals, alcohol,
transportation, and touring services.

B. 	 Guidelines on use of funds for official entertainment
     and representation need to be clarified

The guidelines and process for Commerce agencies to use in obtaining approval to expend funds
for official entertainment and representation are described in Department Administrative Order
(DAO) 203-10. Official entertainment is “entertainment which furthers a departmental purpose
directly associated with the Department’s statutorily mandated missions,” and the term is used to
refer to domestic events only. Representation is “official entertainment abroad for the purpose of


                                                 5

U.S. Department of Commerce                                                            Final Report IPE-13313

Office of Inspector General                                                                     February 2001




furthering the interests of the United States.”1 According to the DAO, a requestor must obtain
prior written approval from an authorized official [Secretarial officers and heads of primary
operating units] for all official entertainment and representation expenditures. This authority
may be re-delegated to other authorized officials. BXA’s Under Secretary has re-delegated his
authority to approve these requests to BXA’s Director of Administration. The requestor must
describe and justify the request for official entertainment and include a cost estimate and list of
guests or attendees. If the expenditures are for more than $1,000, prior written approval must
also be obtained from the Chief Financial Officer and Assistant Secretary for Administration.
The requestor must identify the source of funds (and verify the availability of funds with the
agency budget officer) to pay for these expenditures.

In a March 2, 1998, memorandum to all BXA senior officials, the Under Secretary provided
more specific guidance to supplement DAO 203-10, stipulating that the State Department’s
Nonproliferation and Disarmament Fund may not be used for official entertainment or
representation activities in connection with BXA’s export control activities. The policy guidance
states further that a separate approval is required if any of the Commerce Department’s official
entertainment or representation funds are to be used for alcoholic beverages, and any such
approval for alcoholic beverages only includes wine and beer, not hard liquor.

However, the Under Secretary’s policy supplementing DAO 203-10 does not provide clear
guidance to BXA staff because it does not address several areas of official entertainment that are
pertinent to the NEC program, and it differs from the DAO on at least one point. For example,
the BXA policy prohibits the use of hard liquor, while the DAO guidance makes no distinction
between the categories of alcoholic beverages that can be used for official entertainment. In
addition, the Under Secretary’s policy guidance on official representation overseas only mentions
receptions or gifts given to foreign dignitaries overseas; it does not address whether meals, food
or drinks (luncheons, dinners, or snack bars) hosted by BXA officials overseas may be
considered as official representation and how they should be handled. We believe the policy
guidance should be revised to clarify any inconsistencies with the DAO and to cover the various
types of events or entertainment that BXA uses for the NEC or its other programs.



In its written response, BXA concurred with our recommendation to revise its policy guidance on


        1
          Definitions from Department Administrative Order, 203-10, Official Entertainment and Representation
Authorizations.

                                                       6
U.S. Department of Commerce                                                 Final Report IPE-13313

Office of Inspector General                                                          February 2001




official entertainment and representation to bring it into conformity with the DAO and to provide
examples that will help clarify what are allowable expenditures.

C.    BXA’s reporting of NEC expenditures to State Department has improved

We interviewed State Department program officials to gain their perspective on the adequacy of
reporting by BXA officials on the expenditures for the NEC program, which is funded by a State
Department unit that handles export control and nonproliferation affairs. The State program
manager position charged with overseeing the NEC activities is held by foreign service officers
who rotate into this assignment approximately every two years. The previous State program
manager complained to us that BXA had not been fully documenting the results of its NEC
activities and providing a proper breakdown of expenditures. However, he added that State does
not have the resources to do an adequate job of management oversight. Specifically, he was
responsible for overseeing $40 million of funding for nonproliferation programs spread among
BXA and the other four agencies. To help him better oversee the programs under his
jurisdiction, he recently developed project management software, with templates, that BXA can
now use to report on its NEC program expenditures in sufficient detail to meet the State
Department’s needs. The current program officer told us that BXA was now using the reporting
format, and it did provide him with the necessary information on program expenditures.

While we did not find serious problems with the expenditures of NEC program funds, we
recommend that BXA managers increase their oversight of the use of program and O&A funds,
including that of its contractors. BXA should ensure that the NEC program managers, staff, and
contractors are aware of and comply with departmental regulations on expenditures of funds for
official entertainment. The NEC program supervisor should also scrutinize the travel vouchers
of NEC staff and contractors, and the billing statements of service providers, to ensure that NEC
program activities are conducted in a cost-effective manner and in compliance with all applicable
regulations, policies, and procedures.



In its written response, BXA officials concurred with our recommendation and stated that they
have conducted refresher training for NEC staff members and contractors concerning applicable
federal travel regulations and departmental regulations for expenditure of funds for official
entertainment and overseas representation. BXA also said that it has taken steps to make sure
that its contractors understand the need for and maintain detailed cost data.




                                                7

U.S. Department of Commerce                                                  Final Report IPE-13313

Office of Inspector General                                                           February 2001




II.   NEC Staff Contacts With Foreign Officials Overseas Were Handled Properly

Another allegation was that BXA officials had improper contact with foreign government
civilian and military officials and were not appropriately (a) debriefing embassy officials
following these contacts and (b) sharing the results of their discussions with other appropriate
U.S. officials. The risk implied in the allegation was that BXA officials might be unwittingly
compromised by some of these foreign officials, including those who may have been involved in
proliferation.

We found, however, that BXA officials have taken steps to increase their awareness of security
issues when they meet with foreign military and other government officials. First, the BXA
officials and NEC staff who travel overseas attend a security course offered by the State
Department’s Foreign Service Institute. Before traveling abroad, as necessary, they also receive a
security briefing from the Commerce Department’s Office of Security. During their travel, BXA
personnel follow several steps to ensure that proper security measures are taken. Upon arriving
in the foreign country, they are briefed by an American embassy official, generally the Deputy
Chief of Mission or the Regional Security Officer. During those briefings, BXA personnel are
given any pertinent background information on the foreign officials they will meet with,
including any U.S. security concerns about the officials. Furthermore, BXA stated that it was
standard policy for an appropriate American embassy officer to accompany them, at least on the
first visit with foreign government officials in the host country. Following their meetings with
foreign officials, BXA personnel brief embassy officials on the outcome of the meetings, and
report the results of the meetings in a cable to cognizant agencies. We are satisfied that BXA is
taking adequate steps through reporting cables and post-visit reports to properly share the results
of its overseas policy discussions with other appropriate agency officials.




                                                8

U.S. Department of Commerce                                                        Final Report IPE-13313

Office of Inspector General                                                                 February 2001




III. NEC Program Performance Measures Appear Adequate

Another allegation was that BXA had no tangible results to show for its expenditure of NEC
program funds. While we did not conduct a program evaluation of the NEC program, we did
look to see whether there were performance measures in place and whether BXA was reporting
on its performance. We interviewed NEC and State Department officials and obtained
documents and reports on the results of the NEC’s program activities. The program’s
performance results were also favorably evaluated in two separate reviews conducted by the
National Academy of Sciences/National Research Council (April 1997) and the Monterey
Institute (Spring 2000).

Separately, a recently issued OIG audit of BXA’s performance measures2 states that although
BXA senior management is committed to verifying and validating its performance data, there
were inconsistencies found in the number of nonproliferation and export control international
cooperative exchanges identified in BXA’s performance report and in its financial statements.
The report further states that BXA needs to strengthen its documentation of performance data.

We found that the NEC program’s performance measures address its success in helping other
countries develop export control regimes that meet international standards. Such regimes would
include a legal and regulatory framework, licensing procedures and practices, enforcement
mechanisms, industry-government relations, and program administration and automation support.

We believe that BXA is making a credible effort to measure NEC program performance. One of
the program’s most significant performance measures is the establishment of export control laws
in participating countries that are a result of BXA’s technical aid. BXA reported that it has
helped several countries, to varying degrees, in establishing export control laws, and it also
helped some countries in establishing regulations to support the laws. The nations in which BXA
reported having helped establish export control laws include Russia, Lithuania, Latvia, Estonia,
Poland, Romania, Bulgaria, Slovenia, Georgia, Kazakhstan, Kyrgyz Republic, Tajikistan, Czech
Republic, Slovakia, and Belarus. BXA also tracks the number and type of seminars and technical
exchanges it has with foreign delegations as a performance measure. State Department program
officials reported that BXA’s NEC program had made significant contributions to their overall
nonproliferation efforts and complimented senior BXA officials on their responsiveness to State
Department requests for information.


        2
         Reporting of Performance Measures Needs Improvement, Bureau of Export Administration, U.S.
Department of Commerce, Office of Inspector General, Audit Report No. FSD-12487, September 2000.

                                                    9
U.S. Department of Commerce                                                               Final Report IPE-13313

Office of Inspector General                                                                        February 2001




BXA’s NEC program performance was also praised in the National Research Council report on
proliferation concerns,3 which stated that the foreign participants in the technical exchanges
expressed positive views about the program. It was also reported that the nonproliferation
programs had been significant in helping these countries develop the legal bases for export
controls and install systems for processing export license requests. As a result of the efforts of
the Commerce Department and other U.S. agencies, some of the countries (Russia and Ukraine)
had become members of two or more of the various international control regimes that address
international movement of nuclear, biological, chemical, missile, and dual-use components and
technologies. A table in the report identified 59 multilateral and bilateral export control
cooperation activities conducted from 1994 through 1996, over 70 percent of which were led by
Commerce teams. In summary, the report stated that if not for the active involvement of the U.S.
specialists in the various agencies, it is unlikely that any of the countries would have given export
controls its heightened level of priority.

Additionally, in a report published by the Monterey Institute, it was stated that “US export
control assistance programs have significant accomplishments to their credit.”4 The report
discusses how the export control assistance programs have laid the legal and institutional ground
work in Russia, Ukraine and Kazakhstan for nuclear, missile and dual-use export controls work.




        3
         “Proliferation Concerns: Assessing U.S. Efforts to Help Contain Nuclear and Other Dangerous Materials
and Technologies in the Former Soviet Union,” National Research Council, April 26, 1997.
        4
            Monterey Institute for International Studies, The Nonproliferation Review, Spring 2000, pages 117-118.

                                                         10
U.S. Department of Commerce                                                        Final Report IPE-13313

Office of Inspector General                                                                 February 2001




IV.     Some Additional Allegations Are Also Largely Unsupported

The anonymous letter also made several other allegations about the NEC program, including one
claiming that BXA does not have legal authority to conduct the NEC program. To assess the
validity of this allegation, we interviewed senior officials in BXA and the Commerce and State
Departments, as well as attorneys with BXA’s Office of the Chief Counsel for Export
Administration and the Department’s Office of General Counsel. We also reviewed various
statutes, legislative actions, and other relevant materials, including a legal opinion5 by BXA’s
Acting Chief Counsel regarding the legal authority issue. Based on this information, we are
satisfied that the allegation is without foundation.

Other allegations about the NEC program included the following: (1) a Schedule C position was
improperly converted to a career position, (2) the appointment of the Deputy Under Secretary for
Export Administration was handled improperly, (3) Commerce was using State Department
appropriations to pay for contractors—against the intent of Congress, (4) NEC program staff
were guilty of inappropriate behavior while traveling overseas, (5) NEC staff lacked expertise in
export control matters, (6) BXA has purposely evaded scrutiny and oversight of the program by
both the Commerce and State Department Inspectors General, (7) the program does not have an
authorized organizational structure, and (8) some foreign officials inappropriately attended
multiple NEC technical exchanges in Washington.

After interviewing officials of the Department’s Office of Human Resources Management and
reviewing documents and information provided by that office, we found no evidence to support
the allegations of inappropriate personnel actions involving the Schedule C or Deputy Under
Secretary positions. Commerce is not restricted from hiring contractors with the funds
transferred from the State Department’s appropriation. The allegation that an NEC staff person
had engaged in inappropriate behavior was true; however, BXA took appropriate disciplinary
action regarding this incident, which occurred several years ago. The allegation that NEC staff
lack expertise in export control matters is without foundation. We have no evidence that BXA
officials purposely evaded scrutiny by the Commerce and State Department Inspectors General.
Also, we determined that the Nonproliferation Export Control Cooperation Team is an official
organizational unit within the Office of the Under Secretary for Export Administration.6



        5
         Memorandum from Acting Chief Counsel for Export Administration Cecil Hunt to Under Secretary for
Export Administration Barry Carter, December 22, 1994.
        6
            Department Organization Order 50-1, Amendment 1, August 4, 1998.

                                                      11
U.S. Department of Commerce                                                 Final Report IPE-13313

Office of Inspector General                                                          February 2001




Finally, although the allegation that some foreign officials may have attended several
Washington technical exchanges is true, those repeat visits appear to be for legitimate purposes.
According to BXA officials, although various officials in a foreign government’s hierarchy
typically will attend the program’s technical exchanges, there are generally one or two
representatives from each country with whom the NEC deals repeatedly. These key officials will
sometimes attend successive technical exchanges; almost invariably these are not the same
course, but rather a series of different courses. BXA officials view this redundancy as desirable,
for these officials provide a much-needed continuity for a technical exchange program that
extends over several years. In our review of attendees at a sample of technical exchanges the
NEC staff conducted in Washington during the past two years, we found two foreign government
representatives who had attended three different technical exchanges.




                                               12

U.S. Department of Commerce                                                               Final Report IPE-13313

Office of Inspector General                                                                        February 2001




V.      Other Issues

Although they were not part of the letter of allegations, during the course of our review, we
identified two other relevant issues which we address in this section.

A.      BXA has developed a policy on the handling of its foreign visitors

During our review, we had security-related concerns about how BXA handles foreign visitors to
the Commerce Department who participate in the technical exchanges in the NEC training center
and in other meetings with BXA officials. These visitors, some of whom are foreign intelligence
officials, were not always escorted. Although escorts for these visitors are not required under
existing departmental Office of Security guidelines,7 the Office of Security is expected to issue a
new security manual by the end of March 2001 that will require Commerce agencies to provide
escorts for all foreign visitors in the Commerce Building to protect against inadvertent disclosure
of classified information. BXA has secured most offices handling classified information on a
regular basis to limit access only to authorized persons, but the opportunity still exists for foreign
officials to access other parts of BXA, and other agencies in the Department, including the
International Trade Administration, which routinely handle classified information and depend on
the use of safes and security containers to safeguard classified material not in use. We believe
that some additional steps may help improve security involving foreign visitors to the building.

In addition to requiring escorts, the new security manual will have requirements for additional
background information on foreign visitors in advance of their arrival. BXA also recognizes the
need for improved security steps. On September 19, 2000, the Under Secretary for Export
Administration issued a guidance memorandum to the Deputy Under Secretary, Chief Counsel
for Export Administration, BXA Director of Administration, and NEC staff and contractors
regarding access to Commerce Department buildings and facilities by foreign nationals
participating in NEC activities. The memorandum requires BXA’s NEC staff to submit specific
information on each foreign visitor at least 30 days before the visit and identify what areas of
Commerce facilities are to be visited. It also requires BXA/NEC to assign an escort for these
foreign visitors while they are in any Commerce Department facility.

Following BXA’s issuance of its foreign visitor policy for the NEC program, we sought the
views of Office of Security officials on this policy. These officials stated that they were satisfied

        7
          Department Administrative Order 207-2, Personal Security Manual, 504c.(2)(c): ... “ Foreign nationals
may be admitted to Commerce facilities provided there are sufficient controls in place to prevent access to areas
housing classified information and restricted technology.”

                                                        13
U.S. Department of Commerce                                                  Final Report IPE-13313

Office of Inspector General                                                           February 2001




with BXA’s new policy of providing escorts for and furnishing advance background information
on foreign visitors to OSY, although they believe it should cover more of BXA’s operations than
just its NEC program.

B. 	   BXA needs to modify its agreement with the State Department
       regarding NEC program activity with China

We learned from our interviews with BXA officials that the interagency agreement between the
State Department and BXA to carry out the NEC program with State’s funding mistakenly
identified future multilateral and bilateral export control work with China. Although the State
Department is required to notify the Congress at least 15 days in advance of its plans to obligate
funds from its nonproliferation appropriation, this notification is not necessary if BXA uses its
own appropriations to fund NEC program activities that involve China. It appears that the
mention of China in the two separate assistance plans attached to the interagency agreement
between BXA and State covering both multilateral regional conferences and bilateral regional
exchanges was an oversight by State and is not appropriate since the agreement only covers
activities funded by the State Department. According to BXA, at the time the agreements were
drafted, both State and Commerce officials understood that State’s Congressional Notification to
the Congress would include funds for BXA to conduct an interagency assessment of China’s
export control system. However, State’s final Notification omitted this project. BXA intends to
use its own funds for its activities with China, and there is no requirement that BXA report that
work to Congress. We recommend that BXA work with State to modify the interagency
agreement to clearly exclude China from the list of countries that BXA will work with using
State Department funding.



In its written response, BXA officials stated that they have asked the State Department to modify
the existing interagency agreement by removing the references to China.




                                                14

U.S. Department of Commerce                                                 Final Report IPE-13313

Office of Inspector General                                                          February 2001




                                   RECOMMENDATIONS


We recommend that the Under Secretary for Export Administration take appropriate steps to:

1. 	   Ensure that NEC staff members and contractors are aware of and follow applicable
       federal travel regulations and departmental regulations for expenditure of funds for
       official entertainment or overseas representation events (see page 3).

2. 	   Revise the March 2, 1998, BXA policy guidance on official entertainment and
       representation to:
       a. 	   make it consistent with Department Administrative Order 203-10 or clarify the
              differences; and
       b. 	   clarify what expenditures are allowable for official entertainment and
              representation, and provide more examples of allowable and nonallowable
              expenditures, including those for meals, alcoholic beverages, transportation and
              touring services (see page 5).

3.	    Work with officials of the State Department to modify the existing interagency agreement
       to exclude China from the list of countries that BXA will work with using State’s funds
       (see page 14).




                                               15

